Record Press Inc., 229 West 36th Street, New York, N.Y. 10018 •
Tel: (212) 619-4949• Fax No. (212) 608-3141

STATE OF NEW YORK.
SS:

88455

AFFIDAVIT OF SERVICE

COUNTY OF NEW YORK
Haward Daniels being duly sworn. deposes and says that deponent is not party ta the action. and is aver 18 years of age.
That an the 28th day of September 2 □ 21 deponent served 3 copies of the within
BRIEF OF AMICI CURIAE 50 RELIGIOUS
ORGANIZATIONS IN SUPPORT OF RESPONDENTS
upon the attorneys at the addresses below. and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY
Catherine Mary Agnes Carr□II
Wilmer Cutler Pickering Hale and D □ rr
1875 Pennsylvania Avenue. NW
Washingt □n. DC 20006
202-663-6000

Brian H. Fletcher
Acting S □ licit □r General
United States Department □f Justice
850 Pennsylvania Avenue. NW
Washingt □ n. OC 20530-00DI
(202)-514-2217

Ahilan Arulanantham
UCLA SCHOOL OF LAW
385 Charles Y□ung Drive East
Las Angeles, CA 80085
(310) 825-1 □ 28

Alexander Haward C □te
Winst□n 6 Strawn LLP
333 S. Grand Avenue. 38th Fl □□r
L □ s Angeles, CA 80071
(213) 615-1893

I. Haward Daniels. declare under penalty of perjury under the laws of the United States of America that the foregoing is true and
correct. executed an September 28. 2021. pursuant ta Supreme Court Rule 2S.5(c). All parties required ta be served. have been
served.
Haward Daniels
Sworn to me this

September 28, 2021
Jasmine Williams
Notary Public. State af New Yark
N □. OIWl6387848
aualified in aueens C □ unty
issian Expires September 16. 2023

Case Name: FBI v Yassir Fazaga
Docket/Case No. 2□ -828

